Audit Report




OIG-08-032
SAFETY AND SOUNDNESS: Material Loss Review of
NetBank, FSB
April 23, 2008




Office of
Inspector General
Department of the Treasury
Contents

Audit Report...............................................................................................          1

    Results in Brief..........................................................................................       1

    Background ..............................................................................................       5
       NetBank History ...................................................................................          5
       Loans Sold with Recourse Provisions.......................................................                   9
       Types of Examinations Conducted by OTS...............................................                       10
       Enforcement Actions Available to OTS ....................................................                   11
       OTS Internal Assessments of the NetBank Failure .....................................                       13

    Results of Review......................................................................................        13

        Causes of NetBank’s Failure...................................................................             13
          Ineffective Business Strategies...........................................................               14
          Ineffective Internal Control Over Operations ........................................                    17
          High Operating Expenses and Losses ..................................................                    18
          Lack of Consistent Core Earnings .......................................................                 19

        OTS’s Supervision of NetBank................................................................               19
          Supervisory Weaknesses and Lessons Learned Noted by OTS Staff........                                    20
          Formal Enforcement Action Delayed After NetBank’s Composite
            Rating Downgraded to 3 ................................................................                24
          Internal Review Process Should Be Formalized in Policy ........................                          28

        Recommendations.................................................................................           29


Appendices

    Appendix     1:      Objectives, Scope, and Methodology ....................................                   32
    Appendix     2:      Chronology of Significant Events ..........................................               34
    Appendix     3:      OTS NetBank Examinations and Enforcement Actions .............                            42
    Appendix     4:      Management Comments......................................................                 51
    Appendix     5:      Major Contributors to This Report .........................................               53
    Appendix     6:      Report Distribution..............................................................         54




                         SAFETY AND SOUNDNESS: Material Loss                                                     Page i
                         Review of NetBank, FSB (OIG-08-032)
Abbreviations

  ALLL          allowance for loan and lease losses
  CEO           Chief Executive Officer
  CMC           Commercial Money Center
  FDIA          Federal Deposit Insurance Act
  FDIC          Federal Deposit Insurance Corporation
  FNMA          Federal National Mortgage Association
  FSB           Federal Savings Bank
  G&A           general and administrative
  IT            information technology
  OIG           Department of the Treasury Office of Inspector General
  OTS           Office of Thrift Supervision
  PCA           Prompt Corrective Action
  RBMG          Resource Bancshares Mortgage Group
  ROE           report of examination




                SAFETY AND SOUNDNESS: Material Loss                      Page ii
                Review of NetBank, FSB (OIG-08-032)
                                                                                        Audit
OIG
The Department of the Treasury
                                                                                        Report
Office of Inspector General




                       April 23, 2008

                       Mr. John M. Reich, Director
                       Office of Thrift Supervision

                       This report presents the results of our review of the failure of
                       NetBank, FSB (NetBank), of Alpharetta, Georgia, and the Office of
                       Thrift Supervision’s (OTS)1 supervision of the institution. Our
                       review was mandated under section 38(k) of the Federal Deposit
                       Insurance Act (FDIA), as amended. OTS closed NetBank and
                       appointed the Federal Deposit Insurance Corporation (FDIC) as
                       receiver on September 28, 2007. At that time, FDIC estimated that
                       NetBank’s failure would cost the Deposit Insurance Fund
                       $108 million.

                       We conducted our fieldwork from October 2007 through March
                       2008 at OTS’s headquarters in Washington, D.C.; and OTS’s
                       regional office in Atlanta, Georgia; FDIC’s Division of Supervision
                       and Consumer Protection in Atlanta, Georgia; and FDIC’s Division
                       of Resolutions and Receiverships in Dallas, Texas. We reviewed the
                       supervisory files and interviewed key officials involved in the
                       regulatory enforcement matters. Appendix 1 contains a more
                       detailed description of our objectives, scope, and methodology.


Results in Brief
                       Causes of NetBank’s Failure

                       Unfavorable economic conditions combined with ineffective
                       business strategies and controls, high expenses (both marketing
                       expenses and high cost of funds), and large losses related to a


1
  OTS is the primary federal regulator of federally chartered and state-chartered savings associations,
their subsidiaries, and their registered savings and loan holding companies.

                       SAFETY AND SOUNDNESS: Material Loss                                          Page 1
                       Review of NetBank, FSB (OIG-08-032)
commercial lease portfolio and its mortgage banking operations
were significant causes of NetBank’s failure.

Beginning in 1997, NetBank’s business strategy was to offer a
broad range of banking and financial service products primarily
through the Internet. To attract depositors, NetBank paid interest
rates that were at the high end of the national averages and
advertised heavily. At the same time, it embarked on an initial
asset acquisition strategy where it purchased loans from other
financial institutions. Included among its early acquisition of assets
was a commercial lease portfolio from Commercial Money Center
(CMC). While NetBank assumed that repayment of these leases
were guaranteed, it later turned out that the leases were alleged to
involve fraud and the insurance companies refused to honor the
guarantees.

In 2001, NetBank shifted its strategy to focus on mortgage
operations. In doing so, NetBank acquired Market Street Mortgage
Corporation (Market Street), a retail residential mortgage origination
company in June 2001. Then, in March 2002, NetBank acquired
and merged with Resource Bancshares Mortgage Group (RBMG), a
wholesale mortgage banking company. NetBank now relied almost
exclusively on mortgage banking to generate earnings both through
loan origination and the subsequent sale of those loans. It should
also be noted that during this acquisition phase, NetBank never
took advantage of economies of scale by consolidating common
business functions.

While its mortgage banking operations did contribute substantially
to NetBank’s earnings, by mid 2005 these earnings began to
contract. At the same time, the secondary mortgage market was
experiencing a dramatic downturn. Rather than curtail its mortgage
banking operations when faced with this deteriorating earnings
scenario, NetBank instead attempted to increase loan production by
lowering its underwriting and documentation standards. Not
surprisingly, this led to poor loan quality. NetBank sold these loans
on the secondary mortgage market with recourse provisions to
investors. Recourse provisions outline the terms when the investor
can request the thrift to buy back the loans. Ultimately, in 2006,
NetBank had to make good on many of those provisions and
repurchase $182 million in loans. Ultimately, when NetBank’s


SAFETY AND SOUNDNESS: Material Loss                              Page 2
Review of NetBank, FSB (OIG-08-032)
mortgage operations became unprofitable, it did not have a
profitable core business to fall back on.

OTS’s Supervision of NetBank

OTS conducted timely and regular examinations of NetBank and
provided oversight through its off-site monitoring. However, as
discussed below, we noted that improvements are needed in the
(1) use of internal OTS assessments, (2) timing of formal
enforcement actions, and (3) OTS’s internal reviews of thrift
failures.

Around the time of the NetBank failure, OTS staff gathered
information for OTS senior management on why NetBank failed and
made a number of observations on the supervision exercised over
the institution. Among the observations, regulators did not: focus
sufficiently on the quality of sold loans being sold into the
secondary market because the loans were not going into NetBank’s
portfolio, emphasize the need for NetBank to achieve consistently
profitable core earnings separate from mortgage banking
operations, require NetBank management to control expenses and
control growth, and factor in the seriousness of the risks posed by
the unexpected shutdown of NetBank’s loan products flowing
through the secondary market.

Other important lessons learned identified by OTS were the need to
ensure: examiners are fully aware of the risks associated with
mortgage banking operations, thrifts develop and follow viable
business strategies, restrictions are imposed on thrifts when
negative trends are present and thrift management has taken little
or no action to address the situation, and examiners not view
residential lending as a “low risk” concentration.

Based on our review of the examination records and reports and
our interviews with OTS and FDIC staff, we affirm these
observations and lessons learned in the internal assessment. OTS
did not react in a timely and forceful manner to certain repeated
indications of problems in NetBank operations. These indicators
were NetBank’s credit risk on loans sold with respect to repurchase
exposure, NetBank’s historically high general and administrative
(G&A) expenses relative to its peers, its continually changing


SAFETY AND SOUNDNESS: Material Loss                           Page 3
Review of NetBank, FSB (OIG-08-032)
business plans, and significant variances in actual operating results
compared to budget.

In an internal review of the NetBank failure, OTS staff indicated
that the need for “trigger points” and contingency strategies to
control mortgage operations had become apparent based on the
contraction in the secondary market for nonconforming mortgage
loans. Trigger points are conditions established by thrift
management that, when reached, would require it to evaluate
whether measures should be taken to address declining business
lines. In this regard, we noted that the OTS Examination Handbook
does not include procedures for reviewing trigger points or
guidance for when OTS should require thrifts to use trigger points
to address declining business lines.

We believe OTS should have used enforcement actions sooner to
address these situations. While OTS eventually did take strong
formal enforcement action in November 2006 through a
supervisory agreement with NetBank, the conditions that
collectively existed in March 2006, when OTS downgraded
NetBank’s composite rating from a 2 to a 3, suggests that a strong
formal enforcement action should have been taken sooner.

In addition to the observations made and lessons learned made by
OTS staff around the time of NetBank’s failure, OTS issued a more
extensive discussion of the failure in November 2007. While the
OTS Internal Bank Review was suggestive that supervision of the
institution should have focused more on certain high risk activities
of NetBank, it did not include a specific assessment of OTS’s
supervision. The internal review also did not include any specific
corrective actions OTS should take to address the areas of concern
it identified. This was the first time OTS had undertaken such a
review of a failed thrift. We believe that such reviews can produce
useful information to improve OTS’s supervisory process outside
and in advance of material loss reviews by our office. Accordingly,
we believe OTS should institutionalize the review process in policy.




SAFETY AND SOUNDNESS: Material Loss                             Page 4
Review of NetBank, FSB (OIG-08-032)
             Recommendations

             We are recommending that OTS (1) ensure that the
             recommendations/lessons learned from internal assessments of the
             NetBank failure are implemented, (2) re-emphasize to examiners
             that for 3-rated thrifts, formal enforcement action is presumed
             warranted when certain circumstances are met and to document
             the reasons when formal enforcement action is not taken, and (3)
             establish in policy a process to assess the causes of thrift failures
             and the supervision exercised over the institution and to take
             appropriate action to address any significant supervisory
             weaknesses or concerns identified.

             OTS Response and Office of Inspector General (OIG) Comments

             OTS agreed with our overall review results and recommendations
             as noted in an April 21, 2008 written response to our draft report.
             For the full text of OTS’s response to the draft report, see
             Appendix 4.

             We believe OTS’s planned actions are responsive to the intent of
             our recommendations.


Background
             NetBank History

             NetBank was established in 1988 as Allatoona Federal Savings
             Bank and renamed Premier Bank in 1995. NetBank Inc., the parent
             holding company for NetBank, was formed in 1996 and raised
             $38.4 million through an initial public offering of 3.5 million shares
             in 1997. NetBank Inc. used these proceeds to acquire Premier Bank
             and the Internet banking division of Carolina First Bank. The thrift
             was renamed Atlanta Internet Bank after the acquisition, Net.b@nk
             in 1998, and NetBank in 2000.

             NetBank’s business strategy beginning in 1997 was to operate as
             an Internet financial institution with no physical branch offices. The
             thrift’s objective was to offer a broad range of banking and
             financial service products primarily through the Internet. Initially

             SAFETY AND SOUNDNESS: Material Loss                             Page 5
             Review of NetBank, FSB (OIG-08-032)
                      loans were not offered via the Internet, and the loans within the
                      thrift’s portfolio were purchased from other financial institutions.

                      NetBank Inc. was able to raise significant amounts of capital from
                      investors. Including the initial stock offering, two additional stock
                      offerings, and a subordinate debt issue, NetBank Inc. raised over
                      $335 million, all within the first year of its initial offering. Most of
                      these proceeds were infused into, or loaned to, NetBank.

                      NetBank relied on the Internet to attract depositors, which turned
                      out to be a high-cost approach. Specifically, NetBank attracted
                      internet depositors by offering high interest rates. This resulted in
                      high cost of funds and high marketing expenses relative to its
                      peers. To cover the high cost of deposits and to attempt to achieve
                      profitability, NetBank used the capital funding provided by NetBank
                      Inc. to rapidly grow interest-earning assets.

                      NetBank also had higher G&A expenses compared to its peer group
                      as shown in table 1 below.

                       Table 1 – Comparison of NetBank G&A Expenses to Peer Group
                                 (as a percentage of Average Assets)
                              Year                    NetBank          Peer Group
                          2007 (thru
                                                        12.7%                   2.5%
                           6/3/2007)
                             2006                        7.0%                   2.3%
                             2005                        5.4%                   2.3%
                             2004                        5.2%                   3.0%
                             2003                        5.8%                   3.2%
                             2002                        5.0%                   2.9%
                       Source: OIG Analysis of Uniform Thrift Performance Reports.2

                      However, OTS management cautioned that the G&A ratios for the
                      UTPR peer group are not directly comparable to NetBank due to its
                      concentration in mortgage banking. According to OTS, the thrift
                      institutions comprising the UTPR peer group are mainly portfolio
                      lenders, the G&A expenses of which are attributable to on-balance
                      sheet operations. The G&A expenses of institutions with large
                      mortgage banking operations, such as NetBank, are largely
                      determined by off-balance sheet activities, i.e. the production, sale

2
 The Uniform Thrift Performance Report (UTPR) provides measures of an individual thrift’s performance
as compared to its asset-size peer group performance.

                      SAFETY AND SOUNDNESS: Material Loss                                      Page 6
                      Review of NetBank, FSB (OIG-08-032)
and servicing of loans. Accordingly, mortgage banking operations
typically record higher ratios of G&A expense to assets than
portfolio lenders. Notwithstanding this, OTS also acknowledged
that NetBank’s G&A expenses were high throughout its life.

As noted above, NetBank’s initial asset acquisition strategy relied
on the purchase of loans from other financial institutions. As
discussed in OTS’s examination reports, an early concern with this
strategy was NetBank’s inadequate underwriting and monitoring of
its purchased loan portfolio. This concern was substantiated with
NetBank’s purchase of the commercial lease portfolio from CMC.
NetBank assumed repayment on these leases was guaranteed by
insurance companies. The CMC leases were later alleged to involve
fraud and led to legal costs for the thrift due to the insurance
companies’ refusal to honor their guarantees. NetBank incurred
substantial losses associated with recording large loss provisions
due to these assets being classified substandard. The pursuit of the
CMC claims continues today.

NetBank changed strategy in 2001 by entering into mortgage
banking. The thrift acquired Market Street Mortgage Corporation
(Market Street), a retail residential mortgage origination company
based in Florida, in June 2001. NetBank then acquired and merged
with RBMG, a wholesale mortgage banking company located in
South Carolina, in March 2002. Meritage Mortgage Corporation,
which was acquired with RBMG, was initially held as a subsidiary
of the holding company NetBank, Inc., but later moved under
NetBank in 2004.

RBMG’s mortgage banking activities dominated the operations of
NetBank following the merger, and senior officials of RBMG
replaced most of NetBank’s existing management, including the
Chief Executive Officer (CEO). The thrift’s asset strategy changed
to focusing on originating single-family mortgage loans for sale on
the secondary market rather than accumulating long-term assets to
be held in portfolio.

NetBank continued to add business lines in 2003 and 2004. The
thrift acquired Financial Technologies Inc., a provider of ATM
services for retail and nonbank businesses, in October 2003 and
renamed it NetBank Payment Systems, Inc. In June 2004, NetBank


SAFETY AND SOUNDNESS: Material Loss                           Page 7
Review of NetBank, FSB (OIG-08-032)
acquired Beacon Credit Service, a provider of recreational vehicle,
boat, and aircraft financing. This was part of NetBank’s attempt to
diversify its income sources, since all profits were coming from
mortgage operations.

While the Market Street and RBMG acquisitions contributed to
earnings, NetBank recorded a pre-tax loss of $19.1 million in 2002
due to a $20.1 million loss provision associated with the CMC
leases. After recording a pre-tax $72.3 million net income in 2003,
NetBank had a pre-tax net loss of $7.1 million in 2004 primarily
due to additional loss provisions on the CMC leases. The thrift
reported pre-tax net income of $6.2 million in 2005 despite the
profitability of its subprime mortgage banking operations turning
negative during the year even though loan production increased.

NetBank responded to declining gains on the sale of loans by
attempting to maintain high loan volumes at the expense of the
quality of loan originations. This resulted in an increase in
repurchase requests from the buyers of the sold loans. The thrift
repurchased $182 million of mortgage loans in 2006 and recorded
related loss provisions totaling $78.1 million.

Beginning with the first quarter of 2006, NetBank began reporting
increasing levels of quarterly losses. The thrift reported a pre-tax
net loss of $203.6 million in 2006, with $80 million of that loss
incurred in the fourth quarter. NetBank’s other business lines were
not sufficiently profitable to offset the mortgage banking losses
and, in some cases, contributed to the reported loss. In October
2006, NetBank’s chairman of the board/CEO resigned. NetBank
paid him $2.9 million in severance pay. The former official was
hired as a senior management official by another OTS-regulated
thrift on or about August 2007.

In the latter half of 2006, NetBank management pursued several
strategies to counter its losses, including selling several business
lines and some loan portfolios and terminating the subprime
mortgage banking operation. These strategies were not successful,
as evidenced by the losses in 2006 which continued in 2007. An
agreement to sell almost the entire thrift was entered into with
EverBank Financial Corporation in May 2007. As NetBank sold off



SAFETY AND SOUNDNESS: Material Loss                             Page 8
Review of NetBank, FSB (OIG-08-032)
                       or exited business lines in preparation for the sale, its losses
                       continued, totaling $120.2 million for the second quarter of 2007.

                       The sale to EverBank Financial Corporation was not consummated
                       because NetBank did not have sufficient cash and saleable assets
                       to close the transaction under the terms of the agreement. With no
                       viable plan for the thrift to restore capital and achieve profitability,
                       OTS exercised its authority to close the institution and appointed
                       FDIC as receiver on September 28, 2007. The estimated loss to
                       the Deposit Insurance Fund at the time of NetBank’s closure
                       totaled $108 million.

                       See Appendix 2 for a chronology of significant events regarding
                       NetBank.

                       Loans Sold with Recourse Provisions

                       As part of NetBank’s strategy, it sold loans that included recourse
                       provisions to investors. Recourse provisions outline the terms when
                       the investor can request the thrift to buy back the loans. An
                       example is if the borrower defaults once within the first four
                       payments, the thrift must buy back the loan. In addition to
                       recording income at the time of the sale, the thrift will estimate the
                       loss on buy backs. The estimate is based on the thrift’s historical
                       experiences. If it does not have a history, the thrift should analyze
                       its peer historical losses and the recourse arrangements on the
                       contracts. The estimate amount of loss is reported as a liability on
                       the balance sheet.

                       Thrifts establish an allowance for loan and lease losses as a contra-
                       asset account on the balance sheet for loans held for investment
                       and held for sale3. In accordance with FIN 45,4 a reserve is

3
  A valuation allowance is a contra account, established and maintained through charges against current
earnings to absorb losses inherent in an institution’s portfolio. Valuation allowances established to
absorb unidentified losses inherent in an institution’s overall loan and lease portfolio are referred to as
the allowance for loan and lease losses (ALLL).
4
  Financial Accounting Standards Board (FASB) Interpretation No. 45 (FIN 45) is an interpretation of
FASB Statements of Financial Accounting Standards (SFAS) 5 and 107. FIN 45 deals with Guarantor’s
accounting and disclosure requirements for guarantees, including indirect guarantees of indebtedness of
others. SFAS 5 requires accrual by a charge to income and disclosure for an estimated loss from a loss
contingency if certain conditions are met. SFAS 107 requires disclosure in the financial statements or in
the accompanying notes of the fair value of financial instruments for which it is practicable to estimate.

                       SAFETY AND SOUNDNESS: Material Loss                                          Page 9
                       Review of NetBank, FSB (OIG-08-032)
established for loans sold with recourse which are considered off-
balance sheet loans; and thus not reported as an asset on the
balance sheet. FIN 45 states that savings associations should
establish warranty reserves for loans sold that may be repurchased
under the standard representations and warranties. The estimated
amount of loss discussed above is recorded as a liability on the
thrift’s balance sheet and an expense on its income statement.
Once a loan is repurchased, it is reported on the balance sheet as
an asset and the reserves for these loans are transferred from the
liability account to a repurchase reserve. The repurchase reserve is
accounted for as a contra-asset account that reduces the book
value of the repurchased loan portfolio.

Types of Examinations Conducted by OTS

OTS conducted various types of examinations of NetBank including
comprehensive examinations, limited safety and soundness
examinations, field visits, and information technology (IT)
examinations. The comprehensive examination is a combined
examination of the institution’s safety and soundness and its
compliance with applicable rules and regulations. Prior to July
2004, safety and soundness examinations and compliance
examinations of NetBank were conducted separately. The safety
and soundness portion of the examination included a review and
evaluation of capital adequacy, asset quality, management
effectiveness, earnings performance, liquidity and asset/liability
management, and sensitivity to market risk. The compliance
portion included an assessment of how well the institution
manages compliance with consumer protection and public interest-
related laws and regulations. The limited examination replaced the
previously designated on-site and off-site supplemental
examinations, field visit, and off-site monitoring. Prior to the
implementation of the limited examination process, field visits were
conducted to review specific areas of concern that OTS had about
an institution. IT examinations included a review and evaluation of
overall management of the information systems used by the thrift,
as well as the effectiveness of the internal audit and security
functions.

OTS, like other bank regulatory agencies, uses the Uniform
Financial Institutions Rating System, commonly called the CAMELS


SAFETY AND SOUNDNESS: Material Loss                           Page 10
Review of NetBank, FSB (OIG-08-032)
                       ratings.5 The CAMELS rating system provides a general framework
                       for assimilating and evaluating all significant financial, operational,
                       and compliance factors inherent in a bank. It enables the regulator
                       to assign each banking organization individual CAMELS component
                       ratings and an overall composite rating that indicates the
                       institution’s overall condition.

                       Enforcement Actions Available to OTS

                       As discussed above, OTS performs various examinations of thrifts
                       resulting in the issuance of reports of examinations (ROE)
                       identifying areas of concern. OTS uses informal and formal
                       enforcement actions to address violations of laws and regulations
                       and to address unsafe and unsound practices.

                       Informal Enforcement Actions

                       Common informal enforcement actions include (1) board of
                       directors’ resolutions6 and (2) meetings with management and the
                       board of directors. During meetings with management and the
                       board of directors OTS may discuss findings and agree on
                       corrective actions. Corrective actions are deficiencies and violations
                       that are included in OTS’s reports of examination and are
                       communicated to the institution with the expectation that it will be
                       corrected by the next examination. Corrective actions also include
                       matters requiring board attention that are specific
                       recommendations to correct major deficiencies and violations listed
                       in the ROE. They require a formal response from the board of
                       directors and are generally repeat corrective actions that have not
                       been addressed by thrift management. Informal enforcement
                       actions are not made public.

                       The effectiveness of the informal enforcement actions depends in
                       part on the willingness and ability of the thrift to correct
                       deficiencies that OTS notes. If the thrift violates or refuses to



5
  CAMELS is an acronym for the performance rating components: Capital adequacy, Asset quality,
Management administration, Earnings, Liquidity, and Sensitivity to market risk. Numerical values range
from 1 to 5, with 1 being the highest rating and 5 representing the worst rated banks.
6
  Board of directors’ resolutions is a document designed to address one or more specific concerns
identified by OTS and adopted by the thrift’s board of directors.

                       SAFETY AND SOUNDNESS: Material Loss                                      Page 11
                       Review of NetBank, FSB (OIG-08-032)
                       comply, OTS cannot enforce compliance in federal court or assess
                       civil money penalties for noncompliance.

                       Formal Enforcement Actions

                       If informal tools do not resolve noted problems, OTS may use
                       formal enforcement tools, especially when there is a threat of harm
                       to the institution, its depositors, or the public. A formal
                       enforcement action is both written and enforceable under the
                       FDIA.7 OTS may assess civil monetary penalties against thrifts and
                       individuals for noncompliance. OTS may also request a federal
                       court to issue an injunction requiring the association to comply
                       with an order. Unlike informal actions, formal enforcement actions
                       are public. Common formal enforcement actions include
                       supervisory agreements,8 cease and desist orders, and civil money
                       penalties.

                       OTS Enforcement Guidelines

                       Considerations for determining whether to use an informal
                       supervisory response or take a formal enforcement action include:

                       •   the extent of actual or potential damage, harm, or loss to the
                           thrift because of the action or inaction;

                       •   the likelihood that the conduct may occur again;

                       •   the capability, cooperation, integrity, and commitment of the
                           thrift’s management, board of directors, and ownership to
                           correct identified problems;

                       •   the effect of the illegal, unsafe, or unsound conduct on other
                           financial institutions, depositors, or the public;

                       •   the examination rating of the thrift;


7
  12 USC §1818(b) and §1831o.
8
  Supervisory agreements are formal written agreements entered into willingly by the thrift, and OTS
uses them only with thrifts or their holding companies that are subject to OTS’s continuing supervision
and jurisdiction, not with individuals or other entities. OTS may use supervisory agreements to require
thrifts or holding companies to cease any statutory or regulatory violation or unsafe or unsound
practice.

                       SAFETY AND SOUNDNESS: Material Loss                                       Page 12
                       Review of NetBank, FSB (OIG-08-032)
             •   the presence of unique circumstances; and

             •   the supervisory goal OTS wants to achieve.

             OTS Internal Assessments of the NetBank Failure

             At the request of the OTS senior deputy director, OTS’s Atlanta
             region provided an assessment of NetBank shortly before the
             institution was closed in September 2007. In working versions of
             that assessment, which was in the form of talking points and
             answers to specific questions by OTS senior management, OTS
             management identified a number of conditions at the thrift that led
             to its failure. OTS management also pointed out some areas where
             supervision could have been better. The assessment was done to
             prepare OTS senior management for questions on the failure once
             it was announced.

             Following the failure of NetBank, OTS initiated an internal review to
             examine the causes of NetBank’s failure and identify lessons
             learned for OTS staff. This was the first time OTS had undertaken
             an internal review following a thrift failure. A member of the OTS
             Examinations and Supervision Operations staff conducted the
             review. The staff member reviewed all relevant ROEs, examination
             workpapers from 2005 forward; OTS Regulatory Profiles, Quarterly
             Monitoring Reports, and Problem Bank Memoranda; Thrift Financial
             Reports; application documents; OTS memoranda and
             correspondence files; and Security and Exchange Commission
             filings. The OTS Internal Bank Review documents the history of
             NetBank, the causes of its failure, and lessons learned: it was
             completed on November 8, 2007.


Results of Review

             Causes of NetBank’s Failure

             Unfavorable economic conditions, combined with ineffective
             business strategies and controls, high expenses, large losses, and
             the lack of consistent positive core earnings were the primary
             causes of NetBank’s failure.



             SAFETY AND SOUNDNESS: Material Loss                           Page 13
             Review of NetBank, FSB (OIG-08-032)
Ineffective Business Strategies

NetBank management did not address various critical challenges
facing the institution. Its business plans continually evolved as a
result of ever-changing business strategies and expansion into new
lines of business. Significant variances between NetBank’s actual
results and its budgeted results occurred throughout its life. After
entering into the mortgage business in 2001, management was
also unable to successfully diversify its operations or respond to
the deteriorating conditions in the mortgage banking industry on
which it had overly relied.

Internet-Only Strategy

Beginning in 1997, NetBank utilized an Internet-only strategy. The
bank’s objective was to offer a broad range of banking and
financial services products primarily through the Internet. Initially,
NetBank did not offer loans via the Internet; instead, it purchased
the loans in its portfolio from other financial institutions.

To attract depositors, NetBank offered high rates on deposits and
incurred high marketing expenses. NetBank justified this strategy
by claiming that operational costs were substantially lower because
of the absence of actual “brick and mortar” branches. The Internet
was a useful means of raising cash for NetBank, which obtained a
large number of deposits because of the high interest rates offered.
In addition, NetBank raised a large amount of capital through stock
issuances in 1997 and 1999, during the Internet boom years.
However, NetBank was unable to generate loans and other earning
assets through the Internet and therefore purchased loans and
leases and instituted fees to produce sufficient income to cover
expenses. Throughout its existence, NetBank incurred high
operating costs.

Mortgage Banking Strategy

NetBank changed strategy in 2001 by entering into mortgage
banking. When it acquired Market Street in June 2001 and RBMG
in early 2002, NetBank established a means, other than through
purchases, to generate assets. As discussed above, Meritage
Mortgage Corporation was acquired with RBMG.


SAFETY AND SOUNDNESS: Material Loss                              Page 14
Review of NetBank, FSB (OIG-08-032)
Although NetBank’s acquisition of RBMG was described as a
merger, RBMG’s mortgage banking activities dominated the
operations of NetBank following the acquisition, and senior officials
of RBMG replaced most of NetBank’s existing management,
including its CEO. NetBank’s asset strategy changed from
accumulating long-term assets to be held in portfolio to focusing on
originating single-family mortgage loans for sale on the secondary
market.

NetBank became heavily dependent on its mortgage banking
operations, primarily through production and sale of loans. Its
mortgage banking products included

•   Alternative A loans that included features such as (a) no income
    verification, (b) no income/no asset/no employment verification,
    and (c) no ratio requirements;
•   Federal National Mortgage Association (FNMA) Desktop
    Underwriter Expanded Approval loans that were designed to
    assist individuals with lower-quality credit;
•   interest only loans, where the borrower initially repays only
    interest;
•   FNMA community loans, designed to assist low-to-moderate-
    income borrowers, which offer high loan-to-value ratios, low
    down payment requirements, and flexibility with respect to the
    borrower’s credit history;
•   option Adjustable Rate Mortgage loans, which offer negative
    amortization and a repayment period of more than 30 years;
•   construction loans granted to end-user owner-occupants; and
•   prime mortgage loans offered to borrowers deemed to have
    good credit.

Table 2 details the contribution of NetBank’s mortgage banking
subsidiaries to its income:




SAFETY AND SOUNDNESS: Material Loss                               Page 15
Review of NetBank, FSB (OIG-08-032)
                         Table 2: Net Income (Loss), 2002-2007 (in millions)
                                                                            NetBank
                                                                            mortgage              Total
                                               NetBank                      operations            NetBank
                                   Market      Funding                      income                income
                         Year      Street      (RBMG)1      Meritage2       (loss)                (loss)4
                         2002            $20.5           $8.7                           $29.2          $(19.1)
                         2003            $29.7          $57.7                           $87.5            $72.3
                         2004            $16.1      Unknown5            $15.0       Unknown5            $(7.1)
                         2005            $10.8        $(18.8)          $(10.8)        $(18.8)             $6.2
                         2006             $4.3       $(109.9)          $(80.4)       $(186.1)         $(203.6)
                         20073           $(3.8)                                        $(3.8)          $(35.6)
                         1
                           NetBank Funding (RBMG) was acquired in March 2002 and operated as a wholly-
                         owned subsidiary of the thrift until October 2004, when it was merged into and
                         operated as a division of the thrift. Net income for NetBank Funding (RBMG) in 2002 is
                         for the 9 months ended December 31, 2002. NetBank Funding (RBMG) performed only
                         servicing and hedging activities in 2007.
                         2
                           Meritage was not part of thrift until 2004 and was closed in the 4th quarter of 2006.
                         3
                           Thru March 31, 2007
                         4
                           Net Income is before tax and extraordinary income.
                         5
                           NetBank Funding (RBMG) had a net loss of $0.8 million for the 6 months ended June
                         30, 2004, Information for the second half of 2004 was not available.


                       The real estate mortgage market had grown due to demand for
                       subprime loans,9 demand for residential mortgage-backed securities
                       issued by investment firms, and relatively low interest rates. After
                       mid-2005, with rising interest rates and increased competition, the
                       environment for mortgage banking began to deteriorate. NetBank,
                       however, was not positioned to withstand the dramatic downturn
                       in the mortgage banking and housing markets and was slow to
                       react to the decline in the market.

                       Additional Business Lines

                       Since all its profits were coming from its mortgage operations,
                       NetBank attempted to diversify its income sources by continuing to
                       add business lines from 2003 through 2005. For example, NetBank
                       acquired several ATM networks through NetBank Payment
                       Systems, as well as other lending segments such as Beacon Credit
                       Services (recreational vehicle, boat, and airplane lending) and
                       NetBank Dealer Financial Services (automobile lending). These

9
  Subprime lending generally refers to extending credit to borrowers who exhibit significantly higher
credit risk than prime borrowers.

                       SAFETY AND SOUNDNESS: Material Loss                                              Page 16
                       Review of NetBank, FSB (OIG-08-032)
efforts at diversification of income sources were unsuccessful
because they were neither well-timed nor well-executed; they
resulted in increasing NetBank’s expenses and adding to its losses.

In the latter half of 2006, NetBank management pursued several
strategies to counter the thrift’s losses, including selling several
business lines and some loan portfolios and terminating the
subprime mortgage banking operation. These strategies were not
successful, as evidenced by the losses in 2006. NetBank entered
into an agreement to sell almost the entire thrift to EverBank
Financial Corporation (EverBank) in May 2007. As NetBank sold off
or exited business lines in preparation for the sale, its losses
continued, totaling a reported $120.2 million for the second quarter
of 2007.

The sale to EverBank was not consummated because NetBank did
not have sufficient cash and saleable assets to close the
transaction under the terms of the agreement. With no viable plan
for the thrift to restore capital and achieve profitability, OTS
exercised its authority to close the institution and appointed FDIC
as receiver on September 28, 2007. NetBank’s estimated losses at
the time of closure totaled $108 million.

Ineffective Internal Controls Over Operations

Certain internal controls over NetBank’s operations were
ineffective. For example, rather than monitoring or instituting
triggers to curtail its mortgage banking operations when economic
conditions warranted such restrictions, NetBank’s strategy
continued to emphasize increased loan production, accomplished
by lowering underwriting and documentation standards. Products
such as “low-doc” and “no-doc” loans allowed borrowers to obtain
loans without demonstrating their ability to repay the loan. In
addition, underwriters reported to individuals who marketed and
sold loans, and sales personnel pressured underwriters to approve
loans.

Lowered underwriting standards led to poor loan quality, which led
to loan repurchases, which led to large losses. In 2006, NetBank
repurchased $182 million in loans that it had sold and ultimately
booked $78 million dollars in loss provisions associated with the


SAFETY AND SOUNDNESS: Material Loss                          Page 17
Review of NetBank, FSB (OIG-08-032)
repurchases. The large losses resulting from loan repurchases
significantly contributed to NetBank’s failure.

High Operating Expenses and Losses

As previously discussed, NetBank’s Internet deposit gathering
strategy resulted in high marketing expenses. In addition, the high
rates offered on deposits contributed to NetBank’s high cost of
funds, and its net interest margins were consistently below that of
its peers. Further, NetBank never achieved economies of scale by
consolidating business operations; staff were located in multiple
locations and operated independently with little to no oversight.
NetBank’s attempts to diversify its operations increased its G&A
expenses.

NetBank also incurred substantial losses on its CMC lease portfolio
by relying too heavily on guarantees offered by sureties on the
leases, rather than on its own due diligence to verify the quality of
the leases. Between March 1999 and October 2000, NetBank
purchased over $123 million worth of the lease pools from CMC
based on financial guarantees made by various sureties. Beginning
in December 2001, CMC failed to make its scheduled lease
payments and declared bankruptcy in May 2002. Subsequently the
sureties refused to make payments on their guarantees, and
NetBank entered litigation to enforce collection from the sureties.
According to the OTS 2002 and 2003 ROEs, the CMC leases were
later alleged to involve fraud and led to legal costs for the thrift due
to the insurance companies’ refusal to honor their guarantees.

As of February 15, 2007, NetBank was owed $73.6 million in
principal and $16.3 million in interest by the sureties. On
August 21, 2007, NetBank entered into a settlement agreement
providing for settlement of NetBank’s pending claims against one
of the sureties that insured the commercial leases that NetBank
bought from CMC and the payment of $19.3 million to NetBank
subject to court approval. As of the date of NetBank’s dissolution—
September 28, 2007, legal action to enforce collection and final
resolution was ongoing.




SAFETY AND SOUNDNESS: Material Loss                              Page 18
Review of NetBank, FSB (OIG-08-032)
                        Lack of Consistent Core Earnings

                        NetBank never established a consistent profitable core business, as
                        shown in table below. NetBank offered relatively high interest rates
                        on deposit accounts and covered these deposit costs by investing
                        in a mix of loan portfolios with higher yields and credit risk. Rather
                        than incurring loan origination costs, NetBank paid premiums to
                        acquire loan portfolios necessary to achieve the asset mix it
                        desired. The savings from not maintaining an in-house loan
                        origination function did not prove adequate to compensate for the
                        premiums paid for loans that the thrift purchased.

                        The net yield on the thrift’s loan portfolios did not cover deposit
                        costs and G&A expenses to the extent necessary to produce core
                        earnings performance at the peer group median level. As a result,
                        as discussed above, NetBank acquired Market Street and RBMG
                        and became entirely dependent on mortgage operation income for
                        profitability. The initial profitability of this segment masked
                        underlying weaknesses, including unusually high operating
                        expenses, ineffective controls of its various subsidiaries and
                        insufficient core earnings.

Table 3: NetBank Core Earnings (in millions)
                                                                                                             2007
                                                                                                             (thru
                     1998      1999       2000      2001     2002      2003    2004      2005     2006       3/31


Core income/
(loss) after loss     $2.0       $3.1      ($3.4)   ($3.4)   ($44.4)   $68.8   ($33.3)   ($0.8)   ($116.7)    ($27.8)
provisions



Net income/(loss)
                      $2.0       $3.6      ($2.9)    $9.9    ($19.1)   $72.3   ($7.1)    $6.2     ($203.6)    ($35.6)
(Pre-tax)

Source: OIG analysis of OTS’s ROEs for NetBank.



                        OTS’s Supervision of NetBank

                        OTS conducted timely and regular examinations of NetBank and
                        provided oversight through its off-site monitoring. Table 4 below
                        summarizes the results of OTS’s annual safety and soundness
                        examinations and enforcement actions. Appendix 3 provides details
                        of corrective actions, matters requiring board attention, and other
                        examination findings.

                        SAFETY AND SOUNDNESS: Material Loss                                                  Page 19
                        Review of NetBank, FSB (OIG-08-032)
                  Table 4 – Summary of OTS NetBank Examinations and Enforcement Actions
                                                          Examination Results
                                                  Number
                             Assets               of          Number of Matters Formal
                  Date       (in       CAMELS     Corrective Requiring Board     Enforcement
                  Started    millions) Rating     Actions     Attention          Actions
                  3/17/1998         $84     2/122212        7                -                  None
                  5/24/1999        $511     2/122212        10               -                  None
                  9/29/2000      $1,535     2/123222        15               -                  None
                  1/2/2002       $2,867     2/222223        9                -                  None
                  3/27/2003      $3,270     2/222222        9                -                  None
                  7/30/2004      $4,849     2/222322        13               2                  None
                  1/9/2006       $4,754     3/323332        28               6                  None
                                            4/423432                                         Supervisory
                                                                                          agreement issued
                  11/2/2006          NA   Off-site review   -                -                11/6/2006
                  3/19/2007      $3,249     5/554555        6                5                  None
                                                       10
                                                                                           Issued notice of
                  8/3/2007          NA    PCA Notice        -                -           undercapitalization11


                       Supervisory Weaknesses and Lessons Learned Noted by OTS Staff

                       Around the time of the NetBank failure, OTS staff gathered
                       information on why NetBank failed so that OTS senior management
                       would be prepared to answer questions about the failure once it
                       was announced. In bullet points prepared for OTS senior
                       management, the assessment noted the following:12

                       •      regulators did not focus sufficiently on the quality of sold loans
                              being sold into the secondary market because the loans were
                              not going into the portfolio of the regulated thrift.



10
   Prompt Corrective Action (PCA) is a framework of supervisory actions, set forth in 12 USC §1831,
for insured thrifts that are not adequately capitalized. It was intended to ensure that action is taken at
the time an institution becomes financially troubled in order to prevent a failure or minimize resulting
losses. These actions become increasingly severe as a thrift falls into lower capital categories. The
capital categories are: well-capitalized, adequately capitalized, undercapitalized, significantly
undercapitalized, and critically undercapitalized.
11
    NetBank maintained a well-capitalized categorization through the quarter ending March 31, 2007.
During the next quarter, ending June 30, 2007, NetBank became undercapitalized. The PCA notice
issued on August 3, 2007 required NetBank to file a capital restoration plan with OTS by
September 13, 2007.
12
   The bullet points quoted below are from an internal OTS email dated September 25, 2007. The
purpose of the email was to circulate a working draft of the talking points to OTS’s Atlanta regional
management and headquarters senior management. The final version of the bullet points focused on the
causes of NetBank’s failure, and did not include these points on OTS’s supervision.

                       SAFETY AND SOUNDNESS: Material Loss                                          Page 20
                       Review of NetBank, FSB (OIG-08-032)
•   exam reports did not emphasize the need for NetBank to
    achieve consistently profitable core earnings separate from
    mortgage banking operations.
•   regulators should have required management to control
    expenses and control growth.
•   regulators did not factor in the seriousness of the risks posed by
    the unexpected shutdown of non-agency products flowing
    through the secondary market.

The bullet points also included the following “lessons learned” from
the failure:

•   ensure examiners are fully aware of the risks associated with
    mortgage banking operations. Assess whether internal
    guidelines should be strengthened with an emphasis on internal
    controls to ensure the line of business is reviewed and assessed
    appropriately with immediate actions taken to remedy any
    concerns.
•   renew emphasis on core earnings and ensure that
    concentrations in riskier mortgage channels are balanced with
    core delivery channels.
•   ensure there is a viable business strategy that is followed. Any
    deviations need to be explored in depth to ensure they make
    sense for the institution. If changes continue, that is a reflection
    on management and should be addressed, as appropriate,
    through ratings and enforcement actions.
•   impose or recommend restrictions when negative trends are
    present and management has taken little or no action to address
    the situation.
•   educate examiners that residential lending can no longer be
    viewed as a “low risk” concentration. Depending on whether it
    is sold into the secondary market versus being held in portfolio,
    the types of delivery channels, volumes within these channels,
    the types of products being offered, the risks associated with
    them, and the underwriting standards.

Based on our review of the examination records and reports and
our interviews with OTS and FDIC staff, we affirm the
observations and lessons learned in the internal assessment. For
example, we noted the following:



SAFETY AND SOUNDNESS: Material Loss                              Page 21
Review of NetBank, FSB (OIG-08-032)
                        Quality of Sold Loans OTS did not sufficiently evaluate credit risk13.
                        on loans NetBank sold with respect to repurchase exposure. In this
                        regard, the OTS Examination Handbook does not include specific
                        procedures for evaluating credit risk on sold loans.

                        As required by generally accepted accounting principles, NetBank
                        established a reserve for sold loans for which investors could later
                        demand that NetBank repurchase under the terms of the sale
                        agreements (such as in the event of an early payment default).
                        NetBank based the reserve on historical patterns of repurchase
                        activities. However, the reserve proved to be inadequate because
                        of the deteriorating quality of the loans NetBank was originating,
                        particularly after NetBank reduced its underwriting standards
                        following OTS’s 2006 examination. In this regard, repurchases
                        increased from $60 million in 2005 to $182 million in 2006. During
                        its examinations, OTS examiners had tested the underlying
                        assumptions and calculations supporting the reserve noting no
                        exception. However, the examiners did not look at the credit
                        quality of sold loans still in the hands of investors to assess the risk
                        that they may have to be later repurchased by NetBank.

                        Control of Expenses NetBank had a history of high G&A expenses.
                        OTS noted concerns about the level of G&A expenses in the 2000,
                        2002, 2003, and 2004 ROEs, but did not direct NetBank to take
                        corrective action until the 2006 ROE. In this regard, the 2006 ROE
                        directed NetBank management to improve its operating efficiency,
                        including reducing expenses.

                        As it turned out, OTS overrelied on management’s assurances and
                        ability to address and control high G&A expenses. In an internal
                        email, dated September 26, 2007, OTS’s Atlanta regional deputy
                        director states: (1) high G&A expenses and lack of efficiency in
                        NetBank’s operations were addressed repeatedly in examinations
                        and in meetings with senior management; (2) NetBank’s CEO
                        presented a compelling case regarding efficiencies in their
                        operations and steps they were taking to reduce expenses;
13
  Credit risk is the risk that borrowers will not repay their mortgages as agreed in the loan contract.
While mortgage bankers typically do not hold mortgages for long periods after origination, they are still
exposed to credit risk while they hold the loans for securitization or sale. Even after loans are sold, the
mortgage banker is exposed to credit risk while standard representations and warranties are in effect.
Loans in a mortgage banker’s “held for sale” portfolios that are put back or become delinquent are
considered “scratch and dent”. Mortgage bankers generally have to sell such loans at a discount.

                        SAFETY AND SOUNDNESS: Material Loss                                          Page 22
                        Review of NetBank, FSB (OIG-08-032)
                       (3) NetBank management stated the losses in the mortgage
                       operations were due to irrationally low pricing from undisciplined
                       competition and cutting expenses would jeopardize loan quality and
                       controls; and (4) NetBank’s CEO had extensive experience in the
                       market, was well informed regarding the details of all the thrift’s
                       operations and was able to provide them with information on steps
                       they were taking to lower expenses. In actuality, the thrift did not
                       control G&A expenses. We believe NetBank’s history of high G&A
                       expenses should have been addressed sooner than the 2006 ROE,
                       and more forcefully.

                       Viable Business Stategy OTS noted but did not react to NetBank’s
                       continually changing business plans. As noted in the Background
                       section of this report, NetBank began as an Internet-only thrift,
                       then later expanded into retail, wholesale and subprime mortgage
                       lending, insurance, ATMs, car loans, and recreational vehicle, boat,
                       and aircraft financing. OTS did not indicate any concerns in its
                       ROEs over the years about NetBank’s continually changing
                       business plans.

                       Negative Trends In the 1999, 2000, 2004, and 2005 ROEs, OTS
                       reported that there were significant variances between NetBank’s
                       actual financial results and its budget. However, except for the
                       1999 ROE,14 OTS did not direct NetBank to take any corrective
                       actions related to these variances.

                       For example, in the 2004 ROE, OTS examiners reported that
                       earnings were significantly lower than anticipated in the budget
                       and that it was likely that total income for the year would lag
                       budget projections by a substantial margin. For example, for the
                       first two quarters of 2004, RBMG mortgage operations lost
                       $584,000 compared to a budget of $7 million net income. OTS
                       downgraded the earnings component of NetBank's CAMELS rating
                       from a 2 to a 3 as a result of this deteriorating earnings trend as
                       well as a large loss in the fourth quarter of 2004 related to CMC
                       reserves. Despite the loss from RBMG operations and the
                       downgrade to the earnings component, OTS did not prescribe any
                       corrective actions in the ROE. In the 2005 ROE, examiners noted

14
   The 1999 ROE directed NetBank to modify its business plan to take into account that a June 1999
equity offering raised less capital than expected. While the ROE identified the actual capital amount
raised, it did not identify the expected amount.

                       SAFETY AND SOUNDNESS: Material Loss                                      Page 23
                       Review of NetBank, FSB (OIG-08-032)
that Meritage mortgage operations lost $2.9 million compared to a
budgeted net income of $9.6 million for the first 8 months of the
year. Again, the ROE did not direct NetBank to take any corrective
action to address the loss.

It should be noted that in the June 2006 ROE and the November
2006 supervisory agreement, OTS directed management to prepare
variance reports that detail actual operating results versus
projected results and include corrective actions for any material
deviations. OTS also directed the board of directors to review the
variance reports on a quarterly basis.

The OTS Internal Bank Review of the NetBank failure discussed
that the need for “trigger points” and contingency strategies to
control mortgage operations had become apparent based on the
contraction in the secondary market for nonconforming mortgage
loans. Trigger points are conditions established by thrift
management that when reached would require it to evaluate
whether measures should be taken to address at risk business
lines. In this regard, we noted that the OTS Examination Handbook
does not include specific procedures for reviewing trigger points or
guidance for when OTS should require thrifts to use trigger points
to address at risk business lines.

For example, as clearly demonstrated by the current subprime
mortgage crisis, the mortgage market is cyclical. Without a
contingency strategy involving trigger points, when the mortgage
environment took a downturn, NetBank attempted to maintain their
high level of loan production rather than reconsider whether the
strategy was appropriate or that its mortgage operations should be
scaled back. To accomplish this, NetBank weakened its
underwriting standards, which led to increased loan repurchases
and associated losses. Despite lowering the underwriting
standards, NetBank’s mortgage operations ultimately made fewer
loans in 2006 than it did in 2005.

Formal Enforcement Action Delayed After NetBank’s Composite
Rating Downgraded to 3

On November 6, 2006, OTS entered into a supervisory agreement
with NetBank’s board of directors, the first time it took a formal


SAFETY AND SOUNDNESS: Material Loss                           Page 24
Review of NetBank, FSB (OIG-08-032)
enforcement action against the thrift. The enforcement action was
taken shortly after OTS downgraded the thrift’s composite rating to
a 4 from a 3. We believe that formal enforcement action should
have been taken sooner, if not at the time OTS downgraded the
thrift’s composite rating to 3 in March 2006, at least by the time it
issued the 2006 ROE in June 2006.

According to section 370 of the OTS Examination Handbook, there
is a strong presumption that thrifts with a composite rating of 4 or
5 warrant a formal action because they are more likely to fail. The
Handbook also states that there is a presumption that a formal
enforcement action is warranted for 3-rated thrifts under any of the
following circumstances:

•   Management is weak.
•   There is uncertainty as to whether management and the board
    have the ability or willingness to take appropriate corrective
    measures.
•   Conditions are rapidly deteriorating.
•   The thrift has a rating of 3 for two consecutive examinations
    after entering into an informal enforcement action, unless the
    thrift complies with the informal enforcement action and no
    new grounds exist for taking a formal action.

We believe 2 of the 4 circumstances mentioned above were met at
the time OTS completed the 2006 examination in May 2006. OTS
noted in the 2006 ROE management's reluctance to shrink asset
size or scale back operations and that plans to deal with
deteriorating capital and earnings had not progressed. Additionally,
conditions were rapidly deteriorating. For example, NetBank lost
$8.9 million and $29.8 million in the first and second quarters,
respectively, of 2006; NetBank’s repurchases of sold loans were
increasing; and NetBank had to obtain a capital infusion from
NetBank Inc. to maintain its well-capitalized categorization.

OTS first noted deterioration in NetBank’s financial condition in
2004. Based on its 2004 examination, OTS downgraded the
earnings component of NetBank's CAMELS rating from a 2 to a 3.
In October 2005, based on trends identified in the 2004 ROE, OTS
conducted a field visit to assess NetBank’s mortgage banking
operations. OTS examiners found that NetBank was experiencing


SAFETY AND SOUNDNESS: Material Loss                           Page 25
Review of NetBank, FSB (OIG-08-032)
                      shrinking margins and an increase in the frequency and severity of
                      losses resulting from mortgage loan repurchases. OTS was
                      concerned about these losses—specifically with the recourse issues
                      and the impact on capital. The ROE noted that the examiners
                      discussed their concerns about capital and earnings with NetBank
                      management before the end of the field visit. NetBank management
                      indicated to the examiners that the thrift recognized OTS's
                      concerns and was working on a defined strategy and plan to
                      improve earnings and capital.

                      From January 9, 2006 to May 19, 2006, OTS conducted a
                      comprehensive examination of NetBank. On March 29, 2006,
                      during the examination, OTS notified NetBank that its composite
                      CAMELS rating was downgraded from a 2 to a 3, along with
                      downgrades to the capital, management, and liquidity component
                      ratings. OTS’s Atlanta regional management informed us that the
                      rating change was made to assure that accurate and updated
                      information on the bank’s risk profile was available prior to the
                      FDIC’s quarterly assessment of risk.

                      As previously noted, the 2006 ROE was issued on June 16, 2006.
                      The 2006 ROE reported, among many other things (1) a lack of
                      management responsiveness to deterioration in profitability and
                      capital levels, (2) material weaknesses in NetBank's planning and
                      budgeting process as significant variances continued to be noted
                      between budget and actual performance, and (3) a lack of progress
                      in developing a plan to improve earnings and capital. The ROE also
                      reported that NetBank had to get a capital infusion, via debt
                      forgiveness, from NetBank Inc. to remain in the well-capitalized
                      category of the PCA framework established by Congress. As
                      discussed above, NetBank lost $8.9 million and $29.8 million in the
                      first and second quarters, respectively, of fiscal year 2006.

                      NetBank responded to the examination report on August 21, 2006.
                      OTS’s Atlanta Region Supervisory Action Committee15 met and
                      approved the initiation of the supervisory agreement on
                      September 25, 2006. Based on continued deterioration in capital

15
  Committee includes senior management officials of the OTS Atlanta region who determine if and
when formal enforcement action will be taken. OTS order 96-72 delegated the authority to execute
supervisory agreements to the regional directors. We were informed that each OTS region has a
supervisory action committee.

                      SAFETY AND SOUNDNESS: Material Loss                                    Page 26
                      Review of NetBank, FSB (OIG-08-032)
and earnings levels, OTS issued the supervisory agreement to
NetBank’s board of directors on November 2, 2006, along with a
notice to downgrade the thrift to a 4.

OTS management stated that the supervisory agreement was not
issued earlier because: (1) OTS wanted to take into consideration
what was occurring at the thrift subsequent to the period covered
by the 2006 examination; (2) NetBank management had already
started taking preliminary actions such as beginning the process to
sell Meritage; and (3) NetBank management did not appear to be
conducting unsafe and unsound business activities. OTS also gave
consideration to the fact that attempts were being made to sell the
institution to EverBank. In this regard, OTS was informed of the
possible sale on May 3, 2006. On August 4, 2006, however, the
NetBank board of directors rejected EverBank’s offer.

While these factors may have been appropriate to consider; we
believe these factors should not have delayed OTS’s issuance of
the supervisory agreement. We recognize that it is somewhat
speculative to conclude that earlier and more forceful enforcement
action would have prevented NetBank’s failure or lessened losses
to the deposit insurance fund. Nevertheless, based on the
conditions existing when OTS downgraded NetBank to a 3, the
increasingly deteriorating conditions noted beginning with the 2004
ROE, and the guidance in OTS Examination Handbook, these
factors warranted OTS taking formal enforcement action sooner. If
OTS had issued formal enforcement action earlier, NetBank might
have acted more quickly or differently to address its problems.

It should be noted that on August 3, 2007, OTS issued to NetBank
a PCA notice that it had determined that NetBank was
undercapitalized. At that time, NetBank had not filed its June 30,
2007, Thrift Financial Report which was due July 30, 2007.
NetBank was required by the notice to provide OTS a capital
restoration plan by September 13, 2007. On August 10, 2007,
NetBank filed its June 30, 2007, Thrift Financial Report and
reported it was significantly undercapitalized. NetBank provided a
capital restoration plan to OTS by letter dated September 13,




SAFETY AND SOUNDNESS: Material Loss                          Page 27
Review of NetBank, FSB (OIG-08-032)
                       2007. 16 However, OTS was already moving to close the institution
                       by this due date.

                       Internal Review Process Should Be Formalized in Policy

                       As mentioned above, just prior to NetBank’s failure, OTS staff
                       assessed the causes of the failure to provide senior management
                       with information in the form of talking points to answer questions
                       that might be asked once the closing of NetBank was announced.
                       In working drafts of the talking points, OTS staff identified lessons
                       learned with respect to OTS’s supervision of the institution. In
                       response to our inquiries of what action OTS had taken to address
                       the lessons learned, we were told that no specific actions had been
                       initiated.

                       The OTS Internal Bank Review prepared after the thrift failed
                       similarly identified a number of lessons from the NetBank failure:

                       •   NetBank’s history underscores the long held belief of OTS that
                           monitoring of business plan execution is critical to the
                           supervisory process.
                       •   Modifying or adjusting the business plan on a continual basis is
                           an indicator of concern regarding financial strategy and
                           soundness.
                       •   Corrective actions to address concentration risks or weak
                           performance are necessary when negative trends are present
                           and management has not taken effective action.
                       •   Internal controls systems must be strong, commensurate with
                           the risk and volume of activity, and enforced by the institution.
                       •   Examiners and the industry need additional training and
                           guidance pertaining to the potential risks in certain types of
                           residential loan portfolios and mortgage banking operations.
                       •   Through staff conferences, team meetings, and/or internal
                           guidance, OTS should clearly communicate the lessons learned
                           from this failure.
                       •   The business plans that NetBank provided to OTS as part of the
                           processing of applications, or through the examination function,
                           did not contain established conditions (or trigger points) when
                           management would be required to evaluate whether mortgage

16
  The capital restoration plan stated that NetBank intended to settle with an insurer of the CMC leases
and make every effort to consummate the sale to EverBank.

                       SAFETY AND SOUNDNESS: Material Loss                                       Page 28
                       Review of NetBank, FSB (OIG-08-032)
                            production should be scaled back or curtailed. With the recent
                            contraction that has occurred in the secondary market for
                            nonconforming mortgage loans, the need for such trigger points
                            and contingency strategies has become more apparent.

                        While the OTS Internal Bank Review was suggestive that
                        supervision of the institution should have focused more on certain
                        high risk activities of NetBank, it did not include a specific
                        assessment of OTS’s supervision. It also did not include any
                        specific corrective actions OTS should take to address the areas of
                        concern it identified.

                        The OTS Internal Bank Review of NetBank was the first time OTS
                        had undertaken such a review of a failed thrift. OTS did not have
                        any specific policies and procedures in place for conducting the
                        review. We were told that the review was modeled after a prior
                        OIG material loss review of the OTS-regulated Superior Bank
                        failure.17

                        We believe that conducting an internal review is an appropriate
                        step to be taken when a financial institution fails. Such reviews can
                        produce useful information to improve OTS’s supervisory process
                        outside and in advance of material loss reviews by our office. The
                        performance of internal reviews represents an important internal
                        control, defined in the Government Accountability Office’s
                        Standards for Internal Control in the Federal Government as the
                        plans, methods, and procedures used to meet missions, goals, and
                        objectives.18

                        Recommendations

                        We recommend that the Director of OTS do the following:

                        1. Ensure that the recommendations/lessons learned from OTS’s
                           internal assessments of the NetBank failure, as described on
                           pages 21 and 28 of this report, are implemented.



17
     OIG-02-040, Material Loss Review of Superior Bank FSB issued Feb. 6, 2002.
18
     GAO/AIMD-00-21.3.1 (November 1999).

                        SAFETY AND SOUNDNESS: Material Loss                           Page 29
                        Review of NetBank, FSB (OIG-08-032)
   Management Response

   OTS agreed with the recommendation and plans on
   implementing responsive actions to the
   recommendations/lessons learned from its internal assessments
   of the NetBank failure by June 30, 2008.

2. Re-emphasize to examiners that for 3-rated thrifts, formal
   enforcement action is presumed warranted when certain
   circumstances identified in OTS Examination Handbook are met.
   Examiners should also be directed to document in the
   examination files the reason for not taking formal enforcement
   action in those circumstances.

   Management Response

   OTS agreed with the recommendation and will issue an internal
   staff bulletin in May 2008 re-emphasizing the current
   enforcement action guidance in the OTS Examination Handbook
   for 3-rated institutions and the importance of documenting the
   reasons when a formal enforcement action is not pursued for a
   3-rated institution.

3. Establish in policy a process to assess the causes of thrift
   failures and the supervision exercised over the institution and to
   take appropriate action to address any significant supervisory
   weaknesses or concerns identified.

   Management Response

   OTS agreed with the recommendation and has begun drafting
   an OTS policy that will require completion of a formal
   assessment for any future thrift failures. This new policy will be
   in place by May 31, 2008.

We believe OTS’s planned actions are responsive to the intent of
our recommendations.

                          * * * * *

We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may
SAFETY AND SOUNDNESS: Material Loss                            Page 30
Review of NetBank, FSB (OIG-08-032)
contact me at (202) 927-5776 or Jeff Dye, Audit Manager, at
(202) 927-0384. Major contributors to this report are listed in
appendix 5.



/s/
Susan L. Barron
Audit Director




SAFETY AND SOUNDNESS: Material Loss                           Page 31
Review of NetBank, FSB (OIG-08-032)
                        Appendix 1
                        Objectives, Scope, and Methodology




                        We conducted this material loss review of NetBank in response to
                        our mandate under section 38(k) of the Federal Deposit Insurance
                        Act, as amended.19 This section provides that if a deposit insurance
                        fund incurs a material loss with respect to an insured depository
                        institution, the inspector general for the appropriate federal banking
                        agency is to prepare a report to the agency, which shall

                        •   ascertain why the institution’s problems resulted in a material
                            loss to the insurance fund,
                        •   review the agency’s supervision of the institution, and
                        •   make recommendations for preventing any such loss in the
                            future.

                        Section 38(k) defines a loss as material if it exceeds the greater of
                        $25 million or 2 percent of the institution’s total assets. The law
                        also requires the inspector general to complete the report within 6
                        months after it becomes apparent that a material loss has been
                        incurred.

                        We initiated a material loss review of NetBank based on the loss
                        estimate by the Federal Deposit Insurance Corporation (FDIC). As
                        of September 28, 2007, FDIC’s Deposit Insurance Fund had
                        recorded an estimated loss of $108 million.

                        To accomplish our review, we conducted fieldwork at the Office of
                        Thrift Supervision ‘s (OTS) headquarters in Washington, D.C., and
                        its regional office in Atlanta, Georgia. We also met with officials of
                        FDIC’s Division of Supervision and Consumer Protection in Atlanta,
                        Georgia, and FDIC’s Division of Resolutions and Receiverships in
                        Dallas, Texas.

                        To assess the adequacy of OTS’s supervision of NetBank, we
                        performed interviews and reviews to determine (1) when OTS first
                        identified NetBank’s safety and soundness problems, (2) the
                        gravity of the problems, and (3) the supervisory response OTS took
                        to get the bank to correct the problems. We also performed
                        interviews and reviews to determine whether OTS (1) might have
                        discovered problems earlier, (2) identified and reported all the
                        problems, and (3) issued comprehensive, timely, and effective

19
     12 U.S.C. §1831o(k).

                        SAFETY AND SOUNDNESS: Material Loss                             Page 32
                        Review of NetBank, FSB (OIG-08-032)
Appendix 1
Objectives, Scope, and Methodology




enforcement actions that dealt with any unsafe or unsound
activities. Specifically, we:

   •   Reviewed OTS supervisory files and records for NetBank
       from 1997 through 2007. We analyzed examination reports,
       supporting workpapers, and related supervisory and
       enforcement correspondence. We performed these analyses
       to gain an understanding of the problems identified, the
       approach and methodology OTS used to assess the thrift’s
       condition, and the regulatory action used by OTS to compel
       thrift management to address deficient conditons. We did
       not conduct an independent or separate detailed review of
       the external auditor’s work or associated workpapers other
       than those incidentally available through the supervisory
       files.

   •   Interviewed and discussed various aspects of the supervision
       of NetBank with OTS officials, examiners, an attorney, and
       an accountant to obtain their perspective on the thrift’s
       condition and the scope of the examinations. We also
       interviewed FDIC officials who were responsible for
       monitoring NetBank for federal deposit insurance purposes.

   •   Interviewed FDIC Division of Receivership and Resolution
       personnel who were involved in the receivership process,
       which was conducted before and after NetBank’s closure
       and appointment of receiver.

   •   Assessed OTS actions based on its internal guidance and
       legislative guidance provided by Federal Deposit Insurance
       Corporation Improvement Act, 12 U.S.C. 1820 (d).

Our review covered the period from 1997 until NetBank’s failure on
September 28, 2007. We conducted our fieldwork from October
2007 through March 2008. We conducted our review in
accordance with generally accepted government auditing
standards.




SAFETY AND SOUNDNESS: Material Loss                           Page 33
Review of NetBank, FSB (OIG-08-032)
                   Appendix 2
                   Chronology of Significant Events




The following chronology describes significant events in NetBank’s history, including
examinations conducted and enforcement actions taken by the Office of Thrift
Supervision (OTS).

3/21/1988 Institution is established under original name, Allatoona Federal Savings
          Bank (FSB).

4/28/1995 Allatoona FSB changes its name to Premier Bank FSB.

2/20/1996 NetBank Inc. is incorporated as a Georgia corporation.

7/28/1997 NetBank Inc. goes on sale to the public with an initial public offering of
          3.5 million shares at $12 per share, which provided $38.4 million in
          proceeds. NetBank Inc. used a portion of the proceeds to buy Premier
          Bank and became its holding company.

8/1/1997    Premier Bank FSB changes its name to Atlanta Internet Bank and moves
            its headquarters from Acworth, GA, to Columbia, SC.

12/31/1997 Atlanta Internet Bank headquarters is moved from Columbia, SC, to
           Atlanta, GA.

2/20/1998 Atlanta Internet Bank headquarters is moved from Atlanta, GA, to
          Alpharetta, GA.

3/17/1998 OTS begins a safety and soundness exam. The exam was completed on
          4/23/1998 and resulted in composite and CAMELS ratings of 2/122212.

9/8/1998    OTS conducts a field visit to Atlanta Internet Bank to follow up on the
            3/17/1998 safety and soundness exam.

9/15/1998 Atlanta Internet Bank changes its name to Net.b@nk.

5/24/99     OTS begins a safety and soundness exam. The exam was completed on
            8/6/1999 and resulted in composite and CAMELS ratings of 2/122212.

5/15/2000 Net.b@nk changes its name to NetBank.

9/29/2000 OTS begins a safety and soundness exam. The exam was completed on
          12/6/2000 and resulted in composite and CAMELS ratings of 2/123222.


                   SAFETY AND SOUNDNESS: Material Loss                           Page 34
                   Review of NetBank, FSB (OIG-08-032)
                   Appendix 2
                   Chronology of Significant Events




12/11/2000 OTS begins a field visit Commercial Money Center Inc. to address
           concerns regarding NetBank’s purchase of commercial lease loans from
           CMC.

4/16/2001 NetBank enters into an agreement with Market Street Mortgage
          Corporation (Market Street), a subsidiary of Republic Bank, providing for
          the sale of Market Street to NetBank. Market Street was based in
          Clearwater, FL.

5/14/2001 OTS conducts a field visit of NetBank to review management’s progress
          in addressing the required corrective actions from the 9/29/2000
          examination. OTS issues a limited safety and soundness report on
          5/17/2001.

7/13/2001 NetBank completes the acquisition of Market Street. The consideration
          paid at closing consisted of approximately 1.7 million shares of NetBank
          common stock and $4.0 million.

11/18/2001 NetBank and its subsidiary Palmetto Acquisition Corporation enter into an
           agreement with Resource Bancshares Mortgage Group (RBMG) providing
           for NetBank’s acquisition of RBMG pursuant to the merger of Palmetto
           with and into RBMG, with RBMG surviving the merger. Immediately
           following the merger, the chief executive officer (CEO) of RBMG,
           becomes NetBank’s CEO.

1/2/2002    OTS begins a safety and soundness exam. The exam was completed on
            3/1/2002 and resulted in composite and CAMELS ratings of 2/222223.

2/11/2002 OTS begins an eligibility examination of RBMG.

2/28/2002 NetBank Inc. notifies Deloitte and Touche that in order to separate its
          internal and external audit functions, the company would change its
          external auditor to Ernst and Young (E&Y).

3/31/2002 NetBank completes the acquisition of RBMG, which began on
          11/18/2001.

3/27/2003 OTS performs a safety and soundness exam. The exam was completed
          on 6/16/2003 and resulted in composite and CAMELS ratings of
          2/222222.


                   SAFETY AND SOUNDNESS: Material Loss                         Page 35
                   Review of NetBank, FSB (OIG-08-032)
                        Appendix 2
                        Chronology of Significant Events




10/6/2003 NetBank enters into an agreement to buy Financial Technologies Inc., a
          provider of ATM services.

6/10/2004 NetBank acquires the principal operating assets of Beacon Credit Service
          LLC, a privately held provider of recreational vehicle, boat, and aircraft
          financing. The purchase price was approximately $7.1 million.

6/15/2004 OTS approves NetBank’s application to establish Meritage Mortgage
          Corporation (Meritage) as an operating subsidiary. Meritage, which
          originates nonconforming, mostly subprime first and second mortgage
          loans, becomes a subsidiary of NetBank.

7/30/2004 OTS performs a comprehensive exam. The exam was completed on
          12/30/2004 and resulted in composite and CAMELS ratings of 2/222322.

12/31/2004 OTS designates NetBank as a qualified thrift lender. The designation
           allows the thrift to receive special benefits such as access to the Federal
           Home Loan Bank financing.

6/1/2005        Market Street enters into an asset purchase agreement with Major
                Mortgage (Major). Market Street was to acquire the assets of 27 of
                Major’s residential mortgage loan production offices located in eight
                western states.

10/11/2005 OTS conducts a field visit of NetBank to assess its mortgage banking
           operation. OTS’s report of examination (ROE) for the field visit states that
           NetBank’s operating results had declined due to increased competitive
           pressure within the mortgage industry. The ROE also notes ongoing
           concern about NetBank’s shrinking capital ratios.

11/9/2005 NetBank delays reporting third-quarter financial results due to an internal
          review of $13 million in conforming mortgage loans the company
          originated and sold to investors. Management was concerned of possible
          irregularities with the loans stemming from the appraisal and underwriting
          process. NetBank filed its 10Q20 on November 14, 2005 after recording a
          provision of $3.5 million for these loans.


20
   The Form 10-Q is a quarterly report required by the Security and Exchange Commission (SEC) that
includes unaudited financial statements and provides a view of the company's financial position during
the year. The report must be filed for each of the first three fiscal quarters of the company's fiscal year.


                        SAFETY AND SOUNDNESS: Material Loss                                         Page 36
                        Review of NetBank, FSB (OIG-08-032)
                      Appendix 2
                      Chronology of Significant Events




1/9/2006       OTS begins a comprehensive exam. The exam was completed on
               5/19/2006 and resulted in composite and CAMELS ratings of 3/323332.
               The report identified deficiencies in key operational areas, including
               insufficient and deteriorating capital and earnings levels.

3/29/2006 OTS downgrades NetBank’s overall CAMELS rating from 2 to 3.

5/3/2006       NetBank informs OTS of a possible sale to EverBank.

6/16/2006 OTS’s ROE for the 1/19/2006 exam is transmitted to NetBank. OTS
          requests that the thrift responds within 60 days.

8/4/2006       OTS regional director meets with NetBank senior management and is
               informed that the board of directors has rejected an offer from EverBank
               to purchase the thrift at book value.

8/21/2006 NetBank submits its response to the examination report.

9/25/2006 OTS’s Atlanta region supervisory action committee meets and approves
          initiation of a supervisory agreement.

10/2/2006 NetBank’s chairman of the board/CEO resigns. NetBank pays him
          $2.9 million severance.

10/10/2006 NetBank reported two events regarding its annual audit in an 8-K21 filing
           with the SEC. As the first event, NetBank reported that E&Y resigned as
           its auditor. As the second event, NetBank reported that E&Y’s 2004
           Report on Internal Control Over Financial Reporting stated that NetBank’s
           internal control over financial reporting was not effective because of a
           material weakness disclosed in those reports. The material weakness
           related to estimation of the change in fair value of mortgage loan funding
           commitments. NetBank addressed the weakness and E&Y agreed that the
           weakness was corrected.




21
  Public companies must report material corporate events on a more current basis. Form 8-K is the
“current report” companies must file with the SEC to announce major events that shareholders should
know about.


                      SAFETY AND SOUNDNESS: Material Loss                                     Page 37
                      Review of NetBank, FSB (OIG-08-032)
                     Appendix 2
                     Chronology of Significant Events




10/13/2006 NetBank sells most of its mortgage servicing rights associated with
           conventional, agency-eligible (i.e. Fannie Mae and Freddie Mac) loans.
           The unpaid principal balance of these loans totaled approximately $8.5
           billion. The rights were sold in two separate transactions; the first
           involving the servicing rights for Fannie Mae and Freddie Mac loans with
           an unpaid principal balance of approximately $8.2 billion and the second
           transaction to sell a pool of Ginnie Mae rights with an unpaid principal
           balance of approximately $230 million.

11/2/2006 OTS meets with NetBank’s board of directors and presents the
          supervisory agreement. OTS also delivers a notice that it has downgraded
          NetBank’s CAMELS rating to a composite 4 from a 3 and designated the
          thrift as troubled. The downgrade was based on the deterioration in
          NetBank’s capital and earnings, which was determined through off-site
          monitoring of NetBank’s financial results performed after the conclusion
          of the 1/9/2006 comprehensive exam.

11/3/2006 NetBank’s 8-K filing with the SEC reports the following events. NetBank
          commits to exit the company’s nonconforming residential mortgage
          operation, resulting in Meritage entering into a personnel placement
          agreement with Lime Financial Services. All remaining operations of
          Meritage were shut down during the fourth quarter. NetBank also sells its
          recreational vehicle, boat, and aircraft financing operations.

11/6/2006 Supervisory agreement takes effect.

1/3/2007      OTS conducts a field visit at NetBank, with Federal Deposit Insurance
              Corporation (FDIC) examiners participating.

2/1/2007      The OTS regional director meets with NetBank’s senior management.
              Senior management informs OTS that NetBank’s subprime mortgage and
              auto lending operations are shut down. Senior management also informs
              OTS that sales of other smaller operations are pending. In light of
              unanticipated losses that threaten the thrift’s capital compliance, the OTS
              regional director requests consideration of immediate sale of the thrift.22

2/13/2007 NetBank hires Porter Keadle Moore LLP as its new independent auditor
          following the resignation of its previous auditor, E&Y, in November 2006.

22
  Source is an internal OTS email dated September 26, 2007. Email documents OTS Atlanta region
senior management’s answers to questions from OTS senior deputy director.

                     SAFETY AND SOUNDNESS: Material Loss                                   Page 38
                     Review of NetBank, FSB (OIG-08-032)
                   Appendix 2
                   Chronology of Significant Events




3/19/2007 OTS begins a safety and soundness exam with FDIC examiners
          participating, including one from the FDIC Division of Resolutions and
          Receiverships. The exam was completed on 7/19/2007 and resulted in
          composite and CAMELS ratings of 5/554555.

4/2007      NetBank starts a shutdown of its wholesale mortgage banking division,
            NetBank Funding.

5/1/2007    NetBank’s ATM and merchant-servicing operation, NetBank Payment
            Systems Inc., is sold to PAI ATM Services LLC, a subsidiary of Payment
            Alliance International Inc.

5/15/2007 NetBank Inc. receives a warning from National Association of Securities
          Dealers Automated Quotation (NASDAQ) as a result of filing its most
          recent quarterly report late.

5/18/2007 NetBank enters into a purchase agreement with EverBank. NetBank
          anticipated that the transaction would result in a loss of $60 - $70 million
          at close.

6/5/2007    OTS Atlanta regional director issues an informal enforcement action
            directing NetBank Inc. to divest NetBank as soon as possible.

6/15/2007 NetBank enters into a purchase agreement with EverBank. NetBank
          agrees to sell its remaining mortgage servicing rights to EverBank for
          approximately $27.2 million. NetBank had previously entered into a
          purchase agreement with EverBank dated 5/18/2007 transferring certain
          other assets and liabilities.

6/21/2007 NetBank files a Current Report on Form 8-K regarding its plan to shut
          down its mortgage servicing operations.

6/29/2007 The OTS regional director advises the FDIC regional director that in light
          of uncertainty regarding NetBank’s ability to consummate the EverBank
          agreement, OTS does not object to the FDIC Division of Resolutions and
          Receiverships increasing its on-site presence at the thrift.

6/30/2007 NetBank’s Thrift Financial Report for the quarter ending 6/30/2007 shows
          capital ratios that put NetBank’s capital in the PCA undercapitalized
          category.

                   SAFETY AND SOUNDNESS: Material Loss                            Page 39
                   Review of NetBank, FSB (OIG-08-032)
                      Appendix 2
                      Chronology of Significant Events




7/1/2007      EverBank takes over NetBank’s $3.2 billion mortgage servicing portfolio.

7/3/2007      NetBank receives a deficiency notice from NASDAQ because its stock
              failed to close above the minimum price of $1 per share for the last 30
              consecutive business days.

7/6/2007      OTS downgrades NetBank’s composite CAMELS rating from 4 to 5 based
              on the safety and soundness exam started on 3/19/2007.

7/7/2007      An FDIC liquidation team begins an on-site review of NetBank.

7/19/2007 Porter, Keadle ,and Moore, LLP completes the audit of the holding
          company complex for the fiscal year ended December 31, 2006, but has
          not filed the 10K23 as of July 19, 2007.

8/2/2007      NetBank receives notice of delisting from NASDAQ.

8/3/2007      NetBank receives notice from OTS that it is undercapitalized and is
              required to file a capital restoration plan with OTS by 9/13/2007.

8/7/2007      Trading of NetBank common stock is suspended.

8/16/2007 Two members of the NetBank Inc. board of directors resign.

8/21/2007 NetBank enters into a settlement agreement providing for settlement of
          NetBank’s pending claims against an insurer of the commercial leases
          bought from Commercial Money Center. The settlement provided for the
          payment of $19.3 million to NetBank subject to court approval.

9/14/2007 NetBank receives a letter from EverBank notifying NetBank of EverBank’s
          termination of the purchase agreement.


23
  Form 10-K is an annual report that provides a comprehensive overview of the company's business
and financial condition and includes audited financial statements.




                      SAFETY AND SOUNDNESS: Material Loss                                   Page 40
                      Review of NetBank, FSB (OIG-08-032)
                 Appendix 2
                 Chronology of Significant Events




9/28/2007 OTS closes NetBank and appoints FDIC as receiver.

9/28/2007 FDIC approves assumption of the insured deposits of NetBank by ING
          Bank, FSB.




                 SAFETY AND SOUNDNESS: Material Loss                      Page 41
                 Review of NetBank, FSB (OIG-08-032)
                            Appendix 3
                            OTS NetBank Examinations and Enforcement Actions




      Date                         Assets                                                                         Formal
      examination   CAMELS              (in   Significant safety and soundness corrective actions and             Enforcement
      started       rating        millions)   other issues cited in Reports of Examination (ROE)                  Action
      3/17/1998     2/122212           $84    Corrective actions to be taken by NetBank                           None
                                              •   Establish lending policies to comply with real estate
                                                  standards.
                                              •   Develop adequate underwriting guidelines pertaining to
                                                  purchased loans and participations.
                                              •   Establish a loan administration system with sufficient
                                                  guidelines and controls.
                                              •   Comply with Thrift Bulletin (TB) 13 requirements in
                                                  Asset/Liability Management Policy.
                                              •   Obtain security testing for marketing web-site.
                                              •   Amend disaster plan.
                                              •   Inform OTS in writing of significant changes to the budget.
      9/8/1998      Field            $246     Other issues (specific corrective action not cited in ROE)          None
                    Visit24                   •   Concerns regarding plans to pay high rates on deposit
                                                  accounts. Resulting high cost of funds may pressure
                                                  management to invest in higher credit risk assets.
                                              •   Purchased construction loans not properly monitored.
                                              •   Error reported on a Thrift Financial Report (TFR) relating to
                                                  construction loan in process commitments.
                                              •   Inappropriate classification of repossessed assets.
      5/24/1999     2/122212         $511     Corrective actions to be taken by NetBank                           None
                                              •   Correct deficiencies in internal asset reviews, credit
                                                  administration, classification of assets, and accuracy of
                                                  loan information reported on the TFR.
                                              •   Develop allowance for loan and lease losses (ALLL) policies
                                                  consistent with guidance and the Thrift Activities
                                                  Handbook.
                                              •   Conduct independent review of loan purchases.
                                              •   Perform quality control checks on servicers to ensure
                                                  compliance with underwriting and documentation
                                                  guidelines.
                                              •   Monitor compliance with written agreements and contracts
                                                  with service providers and vendors.
                                              •   Implement monitoring procedures for loan servicers.
                                              •   Make revisions to policies and procedures as detailed on
                                                  written exception sheets or in examination reports provided
                                                  to management.
                                              •   Develop system for tracking, analyzing, and reporting



24
  OTS conducted field visits of NetBank to follow-up on certain matters identified in the most recent
comprehensive examination. The ROE prepared for field visits did not assign CAMELS ratings.

                            SAFETY AND SOUNDNESS: Material Loss                                                          Page 42
                            Review of NetBank, FSB (OIG-08-032)
                 Appendix 3
                 OTS NetBank Examinations and Enforcement Actions




Date                      Assets                                                                        Formal
examination   CAMELS           (in   Significant safety and soundness corrective actions and            Enforcement
started       rating     millions)   other issues cited in Reports of Examination (ROE)                 Action
                                         prepayment rates of purchased loan portfolios.
                                     •   Modify business plan to account for the lower amount of
                                         common equity actually raised and to reflect changes in
                                         portfolio strategies.
                                     •   Adopt a formal interest rate risk (IRR) management policy
                                         in accordance with 12 CFR §563.176 and TB 13a.
9/29/2000     2/123222    $1,535     Corrective actions to be taken by NetBank                          None
                                     •   Address previously cited weaknesses in lending function
                                         and monitoring of purchased loans and leases.
                                     •   Develop a system for monitoring compliance with loan-to-
                                         borrower regulation.
                                     •   Develop procedures for identifying and reporting loans that
                                         exceed supervisory loan-to-value ratio guidelines.
                                     •   Develop IRR exposure monitoring system.
                                     •   Comply with institution’s policies and procedures.
                                     •   Develop written ALLL policy (repeat).
                                     •   Develop written procedures for annual reviews of financial
                                         statements for commercial borrowers, commercial loan
                                         guarantors, and income-producing collateral properties.
                                     •   Document the review of each loan pool, prior to purchase,
                                         and underwriting criteria.
                                     •   Develop a timetable and assign responsibility for correcting
                                         the deficiencies noted in ROE.
                                     •   Review annually and approve all employment contracts of
                                         senior executive officers.
                                     •   Prepare and present and ensure compliance with Interbank
                                         Liabilities Policy.
                                     •   Review and approve the performance of the institution’s
                                         appraisers annually.
                                     •   Adopt written statement that addresses the risk associated
                                         with the institution’s retail sales of nondeposit investment
                                         products.
                                     •   Develop a system for tracking, analyzing, and reporting
                                         prepayment speeds of purchased loan portfolios.
                                     •   Ensure that business plans and budgets for 2001 and
                                         beyond include detailed forecasts and projections for the
                                         thrift only.
                                     Other issue (specific corrective action not cited in ROE)
                                     •    High turnover in key management positions.




                 SAFETY AND SOUNDNESS: Material Loss                                                           Page 43
                 Review of NetBank, FSB (OIG-08-032)
                   Appendix 3
                   OTS NetBank Examinations and Enforcement Actions




Date                         Assets                                                                         Formal
examination   CAMELS              (in   Significant safety and soundness corrective actions and             Enforcement
started       rating        millions)   other issues cited in Reports of Examination (ROE)                  Action
12/11/2000    Field visit     NA        Other issue (recommendation)                                        None
               to CMC                   •    Recommends that NetBank purchase no additional lease
                                             pools from Commercial Money Center (CMC) due to
                                             determination that these investments may be more risky
                                             than represented.


5/14/2001     Field visit    $2,000     Corrective actions to be taken by NetBank                           None
              (follow-up                •   Strengthen Interbank Liabilities Policy (repeat).
              to 2000                   •   Review and approve the performance of the institution’s
              exam)                         appraisers (repeat).
                                        •   Develop a system for tracking, analyzing, and reporting
                                            prepayment speeds of purchased loan portfolios (repeat).
                                        •   Ensure that business plans and budgets for 2001 forward
                                            have detailed forecasts and projections for thrift
                                            only.(repeat)
1/2/2002      2/222223       $2,867     Corrective actions to be taken by NetBank                           None
                                        •   Ensure all internal control deficiencies are corrected in a
                                            timely manner.
                                        •   Verify funds for construction loans.
                                        •   Obtain and review financial information for builders.
                                        •   Develop procedures to identify all second mortgages and
                                            home equity lines of credit with combine loan-to-value
                                            ratios of 90 percent or more.
                                        •   Develop procedures for identifying and documenting risks in
                                            higher risk portfolios.
                                        •   Provide support for upgrading a rating of a higher risk loan.
                                        •   Obtain current audited financial statements of servicers
                                            prior to entering into agreements.
                                        •   Ensure documentation is maintained to permit review of all
                                            material transactions and business activities.
                                        •   Monitor interest rate sensitivity.
                                        Other issues (specific corrective action not cited in ROE)
                                        •   Tangible and core capital are below level needed to support
                                            growth.
                                        •   Return on assets and return on equity were below
                                            comparable industry levels.




                   SAFETY AND SOUNDNESS: Material Loss                                                             Page 44
                   Review of NetBank, FSB (OIG-08-032)
                 Appendix 3
                 OTS NetBank Examinations and Enforcement Actions




Date                      Assets                                                                  Formal
examination   CAMELS           (in   Significant safety and soundness corrective actions and      Enforcement
started       rating     millions)   other issues cited in Reports of Examination (ROE)           Action
3/27/2003     2/222222    $3,270     Corrective actions to be taken by NetBank                    None
                                     •   Review and approve all automobile lending policies.
                                     •   Revise construction lending policy.
                                     •   Ensure sufficient funding is available before granting
                                         construction loans.
                                     •   Support all construction draws with reports.
                                     •   Review loan report to ensure appropriate and timely
                                         handling of all loans.
                                     •   Obtain appraisals on all repossessed assets.
                                     •   Conduct a property inspection and verify funds are
                                         adequate to complete construction.
                                     •   Obtain and review financial information for builders.
                                     •   Review all secondary market agreements for credit
                                         enhancements.
                                     Other issue (specific corrective action not cited in ROE)
                                     •   Majority of Market Street Mortgage Corporation
                                         compensation is incentive based and tied to loan
                                         production and profitability.




                 SAFETY AND SOUNDNESS: Material Loss                                                     Page 45
                 Review of NetBank, FSB (OIG-08-032)
                 Appendix 3
                 OTS NetBank Examinations and Enforcement Actions




Date                      Assets                                                                        Formal
examination   CAMELS           (in   Significant safety and soundness corrective actions and            Enforcement
started       rating     millions)   other issues cited in Reports of Examination (ROE)                 Action
7/30/2004     2/222322    $4,849     Matters requiring NetBank board attention                          None
                                     •    Confirm policies and procedures have been implemented
                                          for processing of Financial Crimes Enforcement Network
                                          (FinCEN) information requests.
                                     •    Discuss steps to enhance compliance programs through
                                          out the company.
                                     Corrective actions to be taken by NetBank
                                     •   Accurately report the risk-based capital calculation for
                                         Market Street Mortgage Corporation residential
                                         construction loans.
                                     •   Appropriately weight the risk of firm commitments to
                                         purchase mortgage backed securities.
                                     •   Properly report special mention and classified asset on TFR.
                                     •   Use actual quarter-end date in ALLL analysis instead of
                                         month-old data.
                                     •   Incorporate off-balance sheet instruments (sold loans) in
                                         IRR model and measure offsetting changes in loans held for
                                         sale.
                                     •   Expand FinCEN searches to include records of all NetBank
                                         divisions.
                                     •   Review loan application procedures for Meritage Mortgage
                                         Corporation (Meritage).
                                     •   Conduct periodic fair lending statistical analysis.
                                     •   Perform periodic reviews on loan pricing, underwriting, or
                                         indicators of predatory lending activities.
                                     •   Establish procedures to ensure accurate reporting of Home
                                         Mortgage Disclosure Act (HMDA) information.
                                     •   Provide training to lending personnel on HMDA.
                                     •   Develop procedures to ensure customers receive notice are
                                         leaving the bank’s insured deposit product to non-deposit
                                         investment area.
                                     •   Identify and prevent deposit account fraud.
                                     Other issues (specific corrective action not cited in ROE)
                                     •   Downgraded (from 2 to 3) earnings component rating with
                                         no corrective actions listed.
                                     •   Actual net income significantly less than budget.




                 SAFETY AND SOUNDNESS: Material Loss                                                           Page 46
                 Review of NetBank, FSB (OIG-08-032)
                   Appendix 3
                   OTS NetBank Examinations and Enforcement Actions




Date                         Assets                                                                          Formal
examination   CAMELS              (in    Significant safety and soundness corrective actions and             Enforcement
started       rating        millions)    other issues cited in Reports of Examination (ROE)                  Action
10/11/2005    Field Visit         Not    Other issues (specific corrective action not cited in ROE)          None
                            identified   •   High level of repurchased loans requiring additional
                                             Financial Accounting Standards Board Interpretation No. 45
                                             provisions.
                                         •   Hedging activities not documented in accordance with
                                             Statement of Financial Accounting Standard (SFAS)133.
                                         •   Increased competitive pressure within the mortgage
                                             industry; yield curve became flatter resulting in narrower
                                             net interest margin.
1/9/2006      3/323332       $4,754      Matters requiring NetBank board attention                           Supervisory
                                         • Adopt a written 3-year business plan.                             agreement
                                         • Provide board of directors with quarterly budget variance         issued
                                             report.                                                         11/6/2006
                                         • Maintain capital levels above the well capitalized Prompt
                                             Corrective Action requirement.
                                         • Ensure that accurate regulatory capital ratios are reported in
                                             TFRs and to OTS.
                                         • Monitor regulatory capital ratios on a monthly basis.
                                         • Correct Bank Secrecy Act and Anti-Money Laundering audit
                                             deficiencies.
                                         Other corrective actions to be taken by NetBank
                                         •   Ensure accuracy of information from systems and investors
                                             to identify off-balance sheet recourse risk for early payment
                                             default and early payoff exposure.
                                         •   Improve systems to accurately identify qualifying from
                                             nonqualifying single-family mortgage loans.
                                         •   Report levels of unsold nontraditional and Alternate-A
                                             mortgages to the board on a periodic basis.
                                         •   Obtain current financial information and updated business
                                             licenses at NetBank Dealer Finance Services, to ensure that
                                             dealers are financially sound and complying with local laws
                                             and regulations.
                                         •   Ensure that real estate owned is appropriately included in
                                             classified asset totals (repeat).
                                         •   Include appropriate supporting written documentation for
                                             key assumptions used in budgeting process.
                                         •   Improve operating efficiency which includes reducing
                                             expenses.
                                         •   Provide and discuss quarterly written variance reports with
                                             the board of directors.
                                         •   Prepare a cash flow statement on a monthly basis.
                                         •   Develop written plan of action to be taken if the bank



                   SAFETY AND SOUNDNESS: Material Loss                                                              Page 47
                   Review of NetBank, FSB (OIG-08-032)
                Appendix 3
                OTS NetBank Examinations and Enforcement Actions




Date                    Assets                                                                           Formal
examination   CAMELS         (in   Significant safety and soundness corrective actions and               Enforcement
started       rating   millions)   other issues cited in Reports of Examination (ROE)                    Action
                                       becomes undercapitalized.
                                   •   Take action to maintain adequate capital levels.
                                   •   Monitor regulatory capital levels on a monthly basis.
                                   •   Report correct capital levels to OTS.
                                   •   Reorganize the corporate compliance department.
                                   •   Integrate compliance management on a corporate wide
                                       basis.
                                   •   Leverage successful processes in other business units.
                                   •   Develop compliance training.
                                   •   Address observations and recommendations cited in an
                                       audit of NetBank’s Bank Secrecy Act compliance program
                                       that was completed by an outside consulting firm engaged
                                       by NetBank.
                                   •   Modify flood insurance procedures.
                                   •   Develop procedures to monitor any third party vendors.
                                   •   Complete changes mentioned in OTS exam.
                                   •   Enhance statistical fair lending analysis.
                                   •   Modify Meritage initial disclosure process.
                                   •   Review construction lending portfolio.
                                   •   Identify and evaluate risk characteristics of interest only
                                       loans.
                                   •   Limit interest only and Alternate-A loan portfolios.
                                   •   Ensure compliance with best practices concerning SFAS
                                       133 requirements for hedge accounting.
                                   •   Update the written SFAS 133 accounting policy related to
                                       pipeline hedge effectiveness.
                                   Other issue (specific corrective action not cited in ROE)
                                   •   Continued diversification efforts with further leveraged
                                       capital.
                                   •   Material capital reporting errors identified in reporting risk-
                                       weighted assets. Noted in prior ROE.




                SAFETY AND SOUNDNESS: Material Loss                                                          Page 48
                Review of NetBank, FSB (OIG-08-032)
                   Appendix 3
                   OTS NetBank Examinations and Enforcement Actions




Date                         Assets                                                                        Formal
examination   CAMELS              (in    Significant safety and soundness corrective actions and           Enforcement
started       rating        millions)    other issues cited in Reports of Examination (ROE)                Action
1/3/2007      Field Visit         Not    Other issues (specific corrective action not cited in ROE)        None
                            identified   •    Capital category declined from well capitalized to
                                              adequately capitalized.
                                         •    Business plan adopted in response to supervisory
                                              agreement not realistic given actual operating results and
                                              current financial condition.
                                         •    Federal Home Loan Bank of Atlanta increases the level of
                                              collateral requirements securing its advances to NetBank.


                                         ROE also noted a number of actions that NetBank management
                                         took between September 2006 to March 2007 to address
                                         problems. These actions included, for example, shutting down
                                         Meritage, the sale of servicing rights to $8.5 billion in
                                         mortgage loans, and termination of its auto lending operation..




                   SAFETY AND SOUNDNESS: Material Loss                                                            Page 49
                   Review of NetBank, FSB (OIG-08-032)
                    Appendix 3
                    OTS NetBank Examinations and Enforcement Actions




Date                         Assets                                                                     Formal
examination    CAMELS             (in   Significant safety and soundness corrective actions and         Enforcement
started        rating       millions)   other issues cited in Reports of Examination (ROE)              Action
3/19/2007      5/554555      $3,249     Matters requiring NetBank board attention                       None
                                        •   Ensure compliance with the various OTS notices and
                                            enforcement actions.
                                        •   Keep reporting regulatory capital position to OTS.
                                        •   Amend classification procedures for construction/
                                            permanent loans.
                                        •   Ensure proper reporting of loans in foreclosure on
                                            delinquency schedules and in classified assets.
                                        •   Address concerns regarding adequacy of ALLL and FIN 45
                                            reserve.
                                        Other corrective actions to be taken by NetBank
                                        •   Adopt appropriate credit concentration limits for each
                                            business unit and the consolidated bank.
                                        •   Ensure controls and monitoring of all existing and future
                                            credit concentrations.
                                        •   Provide monthly reports on capital to OTS.
                                        •   Properly report foreclosed loans on delinquency schedules
                                            and in classified assets.
                                        •   Address concerns regarding ALLL and FIN 45.
                                        •   Properly classify construction loans.
                                        Other issues (specific action not required in ROE)
                                        •   Changes in market conditions for subprime products, plus
                                            managerial pressure to maintain high levels of loan
                                            production, resulting in underwriting practices being
                                            relaxed, a significant decline in the quality of loans
                                            originated and sold, and higher volumes of loan
                                            repurchases in 2006.
                                        •   Underwriters previously reporting to individuals who were
                                            responsible for marketing and sales of loans.
Source: OIG Analysis of OTS ROEs for NetBank.




                    SAFETY AND SOUNDNESS: Material Loss                                                        Page 50
                    Review of NetBank, FSB (OIG-08-032)
Appendix 4
Management Comments




SAFETY AND SOUNDNESS: Material Loss   Page 51
Review of NetBank, FSB (OIG-08-032)
Appendix 4
Management Comments




SAFETY AND SOUNDNESS: Material Loss   Page 52
Review of NetBank, FSB (OIG-08-032)
Appendix 5
Major Contributors to This Report




Susan Barron, Director, Banking Audits
Delores Dabney, Audit Manager
Jeffrey Dye, Audit Manager
Jaideep Mathai, Auditor in Charge
Amnoiphorn Samson, Program Analyst
Michelle Littlejohn, Program Analyst
Regina Morrison, Auditor
John Gauthier, Auditor
Shiela Michel, Referencer




SAFETY AND SOUNDNESS: Material Loss      Page 53
Review of NetBank, FSB (OIG-08-032)
Appendix 6
Report Distribution




Department of the Treasury

   Office of Strategic Planning and Performance Management
   Office of Accounting and Internal Control

Office of Thrift Supervision

   Office of Thrift Supervision
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner

United States Senate

   Chairman and Ranking Member
   Committee on Banking, Housing, and Urban Affairs

U.S. House of Representatives

   Chairman and Ranking Member
   Committee on Financial Services

Federal Deposit Insurance Corporation

   Chairman

U.S. Government Accountability Office

   Comptroller General of the United States




SAFETY AND SOUNDNESS: Material Loss                      Page 54
Review of NetBank, FSB (OIG-08-032)
